IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
--ooOoo-ISIAH LAMONTE BROWN, Petitioner
vs.
THE STATE OF CALIFORNIA, Respondent
--ooOoo-PROOF OF SERVICE
I am a citizen of the United States. My business address is P.O. Box 13172,
Oakland, California. My electronic service address is lizgarfinkle@gmail.com. I am
over the age of 18 years, and not a party to this cause. On this date, following
ordinary business practice, I electronically served the documents described as:
PETITION FOR WRIT OF CERTIORARI
&
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
to Respondent, Attorney General of California, at SFAG.Docketing@doj.ca.gov.
I declare under penalty of perjury under the laws of the State of California
that the above is true and correct. Executed on May 27, 2021, at Oakland,
California.

